HHS/OIG-Audit--"Audit of Medical Supply Ancillary Costs Claimed by
31 Skilled Nursing Facilities Owned by Horizon West, Inc., (A-09-98-00060)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medical Supply Ancillary Costs Claimed by 31 Skilled Nursing
Facilities Owned by Horizon West, Inc.," (A-09-98-00060)
August 31, 1998
Complete Text of Report is available in PDF format
(443 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Horizon West, Inc. misclassified certain
costs as ancillary medical supplies. The costs should have been classified and
claimed as other types of costs, such as routine, dietary, and administrative
and general costs. As a result of this misclassification, Horizon was overpaid
Medicare funds totating $1.1 million for Fiscal Year (FY) 1991. Horizon concurred
with out finding and has voluntarily repaid the Federal Government $1.7 million.
This amount includes the $1.1 million we identified as an overpayment plus an
additional $0.7 million to cover our estimate of overpayments made for FYs 1992
through 1995.